                   luation




        EVALUATION      OF THE DEFENSE MEGACENTERS
                       YEAR 2000 PROGRAM



Report Number 98-193                          August 25, 1998




              Office of the Inspector General
                  Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, contact the Secondary Reports
  Distribution Unit of the Analysis, Planning, and Technical Support Directorate at
  (703) 6048937 (DSN 664-8937) or FAX (703) 6048932 of visit the Inspector
  General, DOD, Home Page at: WWW.DODIG.OSDMIL

  Suggestions for Future Evaluations

  To suggest ideas for or to request future evaluations, contact the Planning and
  Coordination Branch of the Analysis, Planning, and Technical Support Directorate
  at (703) 604-8908 (DSN 664-8908) or FAX (703) 604-8932. Ideas and requests
  can also be mailed to:

                      OAIG-AUD (ATTN: APTS Evaluation Suggestions)
                      Inspector General, Department of Defense
                      400 Army Navy Drive (Room 801)
                      Arlington, Virginia 22202-2884

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800) 424-
  9098; by sending an electronic message to Hotline@DODIG.OSD.MIL;          or by
  writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

ASD(C31)              Assistant Secretary of Defense (Command, Control,
                         Communications, and Intelligence)
CDA                   Central Design Activity
DISA                  Defense Information Systems Agency
DISA WESTHEM          Defense Information Systems Agency Western Hemisphere
DMC                   Defense Megacenter
DSA-D                 Defense Information Systems Agency Support Activity - Denver
OSD                   Office of the Secretary of Defense
SOE                   Standard Operating Environment
sso                   System Support Ofike
Y2K                   Year 2000
                              INSPECTOR     GENERAL
                              DEPARTMENT OF DEFENSE
                                400 ARMY NAVY DRIVE
                              ARLINGTON. VIRGINIA 22202




                                                                           August 25, 1998

MEMORANDUM         FOR ASSISTANT SECRETARY OF DEFENSE (COMMAND,
                         CONTROL, COMMUNICATIONS,  AND
                         INTELLIGENCE)/ DEPARTMENT OF DEFENSE
                         CHIEF INFORMATION OFFICER
                       DIRECTOR DEFENSE INFORMATION SYSTEMS
                         AGENCY

SUBJECT:    Evaluation of the Defense Megacenters    Year 2000 Program
            (Report No. 9% 193)


        We are providing this report for information and use. Management    comments on a
draft were considered in preparing the final report.

         Comments on the draft of this report conformed to the requirements of DoD
Directive 7650.3 and left no unresolved issues. Therefore, no additional comments are
required.

         We appreciate the courtesies extended to the evaluation staff. Questions on the
evaluation should be directed to Mr. Kenneth Stavenjord, at (703) 604-8952
(DSN 664-8952) (kstavenjord@dodig.osd.mil)      or Mr. Dan Convis, at (703) 602-l 769
(DSN 332-1769) (dconvis@dodig.osd.mil).       See Appendix C for the report distribution
The evaluation team members are listed inside the back cover.




                                          Robert J.‘Lieberman
                                       Assistant Inspector General
                                               for Auditing
                            Office of the Inspector General, DOD

Report No. 98-193                                                         August 25,1998
   (Project No. 8PT-3005)



         Evaluation of the Defense Megacenters Year 2000 Program


                                   Executive Summary

Introduction. This is one of a series of reports being issued by the Inspector General,
DOD, in accordance with an informal partnership with the Chief Information Officer, DOD,
to monitor DOD efforts to address the Year 2000 computing challenge. Our attention
focused on the Defense Megacenters because they are primary providers of mainframe
computer services to fUnctiona users in the Air Force, Army, Navy, Marine Corps, and
the Defense agencies. The systems that run on a mainframe computer operate in a logical
partition called a “domain.”

Evaluation Objectives. The evaluation objective was to determine whether the Defense
Information Systems Agency was adequately preparing its information technology systems
at its Defense Megacenters to resolve Year 2000 date processing issues. We evaluated
Year 2000 readiness of executive software running on mainframe computers at the
Defense Information Systems Agency’s Defense Megacenters. We also included the
Year 2000 readiness of the hardware and facilities used to support the executive software.
Our evaluation report is based on our field work that was completed on May 4, 1998. In
addition, actions undertaken after May 4 but prior to the issuance of our report were
acknowledged.

Evaluation Results. Although much progress has been made in converting the Defense
Megacenters Systems to Year 2000 compliance, problems remain in three areas: reporting,
testing, and contingency planning.

        l   Defense Information Systems Agency Year 2000 status reports for executive
            software were incomplete and could be misinterpreted.        The reports showed
            that the executive software product inventory was 60 percent compliant but
            did not reveal that the domain compliance was zero percent. As a result, DOD
            is at risk of classifying mission critical systems on mainframe computers as
            being Year 2000 compliant when they are not (Finding A).

        l   The Defense Information Systems Agency did not plan to test the non-
            Standard Operating environment, computer hardware, and facility equipment
            for Year 2000 compliance. As a result, mission critical processing may be at
            risk of date related failures (Finding B).

        l   Although the Defense Information Systems Agency decided to establish
            contingency plans and issue initial guidance to the Defense Megacenters, the
            guidance needs to be expanded. Without comprehensive planning, mission
            critical systems may not be able to continue operations if Year 2000 failures
            occur (Finding C).
The results of the evaluation were briefed to the Director, Defense Information Systems
Agency on June 26, 1998 and to the Deputy Secretary of Defense on July 22, 1998. In
both cases, management directed that corrective actions be initiated immediately.

Summary of Recommendations.          We recommend that the Director, Defense Information
Systems Agency (DISA) direct the Defense Megacenters and System Support Office to
establish written agreements with the Central Design Activities for domain renovations,
report complete Year 2000 status including executive software renovations by domain,
and report the affected applications by domain. We recommend that DISA report domain
Year 2000 compliance status to the Office of the Secretary of Defense. We recommend
that the Department of Defense Chief Information Officer direct the Central Design
Activities to expedite establishment of written agreements with the Defense Megacenters
and Systems Support Offtce for domain executive software Year 2000 renovation. We
recommend that the Department of Defense Chief Information Officer advise the
Secretaries of the Military Departments and Defense agencies when domains have a high
risk of not becoming Year 2000 ready. We recommend that DISA direct the Defense
Megacenters and System Support Office to implement comprehensive Year 2000 testing
of non-standard executive software, computer hardware, and facility equipment. We
recommend that DISA require the writing of contingency plans by the Defense
Megacenters and that these contingency plans include risk assessments and coverage of
executive software, computer hardware, and facilities equipment.

Management Comments.          The Assistant Secretary of Defense (Command, Control,
Communications, and Intelligence)/Department       of Defense Chief Information Officer
(ASD[C31]) concurred with the recommendations.         The Deputy Secretary of Defense
directed written agreements between DISA and the users of each domain at the July 22,
 1998, Year 2000 Steering Committee meeting. The Office of the ASD(C31) coordinated a
policy memorandum from the Secretary of Defense including a statement that funds are
not to be obligated for any domain user that has failed to sign explicit test agreements with
DISA by October 1, 1998. The Ofice of the ASD(C31) will also arrange with DISA for
the information necessary to inform the Secretaries of the Military Departments and
Defense agencies of domains at risk of not becoming Year 2000 ready. DISA concurred
with the findings and recommendations.      DISA will establish written agreements with the
Central Design Activities, report Year 2000 status by domain internally and to the Office
of the Secretary of Defense, and report affected applications and agreement status by
domain. DISA will selectively test components of the non-standard operating
environment, computer hardware, and facility equipment because time and resource
constraints will not allow them to test all products. The Director of DISA will instruct the
Defense Megacenters to conduct contingency planning and issue requirements in
accordance with the recommendations. A discussion of management comments is in Part I
and the complete text is in Part III.




                                              ii
Table of Contents

Executive Summary                                                                i



Part I - Evaluation Results

      Evaluation   Background                                                    2
      Evaluation   Objectives                                                    4
      Finding A.   Reporting Year 2000 Status                                    5
      Finding B.   Testing Year 2000 Compliance                                 11
      Finding C.   Planning Year 2000 Contingencies                             14

Part II - Additional Information

      Appendix A. Evaluation Process
        Scope and Methodology                                                   20
        Summary of Prior Coverage                                               21
      Appendix B. Glossary                                                      22
      Appendix C. Report Distribution                                           24

Part III - Management Comments

      Assistant Secretary of Defense (Command, Control, Communications,   and
         Intelligence)/Department  of Defense Chief Information Officer
         Comments                                                               28
      Defense Information Systems Agency Comments                               32
Part I - Evaluation   Results
Evaluation Background
    The year 2000 (Y2K) problem is rooted in the way dates are recorded and
    computed in automated information systems. For the past several decades,
    systems have typically used two digits to represent the year, such as “97”
    representing 1997, to conserve on electronic data storage and reduce operating
    costs. Using a two-digit format makes twenty-first century years indistinguishable
    from those in the twentieth century, thus the year 2000 is identical to 1900,
    or 200 1 to 190 1. As a result of this ambiguity, system and application programs
    that use dates to perform calculations, compansons, or sorting could generate
    incorrect results when working with years after 1999.

    In addition, the year 2000 is a leap year, the first century leap year since 1600.
    This means that computer systems and applications must recognize
    February 29, 2000, as a valid date.

    Because of the potential failure of computers to finction throughout the
    Government, the President issued an executive order, “Year 2000 Conversion,”
    dated February 4, 1998, making it policy that Federal agencies ensure that no
    critical Federal program is disrupted because of the Y2K problem. Also, the head
    of each agency must ensure that efforts to address the Y2K problem receive the
    highest priority attention in the agency. The General Accounting Office has
    designated resolution of the Y2K problem as a high-risk area. DOD has
    recognized the Y2K issue as critical and has designated it as a material
    management control weakness area in the FY 1957 Annual Statement of
    Assurance.

    Impact on DOD. As of May 1998, the DOD reported 2,803 mission critical
    systems. DOD reports indicate that of these systems 480 are Y2K compliant, 255
    are scheduled to be replaced, 1,898 are being repaired,
                                                         .  and
                                                             _ 170 are being
                                                                       _ . . . . retired.
    The total cost of the DOD Y2K effort was estimated at about $1.93 billion

    DOD Year 2000 Management Strategy. The Assistant Secretary of Defense
    (Command, Control, Communications, and Intelligence) (ASD[C31]) issued the
    “Department of Defense Year 2000 Management Plan” in April 1997. The
    management plan provides the overall DOD strategy and guidance for inventorying
    systems, prioritizing systems, retiring systems, and monitoring progress.
    According to the management plan, the DOD Chief Information Oficer has overall
    responsibility for overseeing the DOD solution to the Y2K problem. DOD
    Components are responsible for conducting five-phase correction programs:
    awareness, assessments, renovations, validations, and implementation.     In a
    memorandum for the heads of executive departments and agencies, dated
    January 20, 1998, the Office of Management and Budget established a new target
    date of March 1999 for implementing solutions to all systems. Also, the DOD
    Year 2000 Management Plan is being updated to accelerate the target completion
    dates for the renovation, validation, and implementation phases. The new mission
    critical systems target completion date for the renovation phase is August 1998,
    and the target for completion of all phases is set for December 1998.



                                           2
Defense Information Systems Agency Roles and Functions. The Defense
Information Systems Agency (DISA) is the central manager for major portions of
the Defense Information Infrastructure. DISA is responsible for planning,
developing, and supporting Command, Control, Communications, Computers, and
Intelligence. DISA is subject to the direction, authority, guidance, and control of
the ASD(C31).

DISA WESTHEM. DISA Western Hemisphere (DISA WESTHEM) is the DISA
commander’s representative for executing the DISA mission within the Western
Hemisphere Theater. DISA WESTHEM represents DISA for all functional users
who subscribe to the full spectrum of services provided by DISA.
DISA WESTHEM also is responsible for managing the DISA-wide base level
information architecture and information systems.

DISA WESTHEM Megacenters. Part of the DISA WESTHEM responsibility is
to operate 16 computer processing activities, called Defense Megacenters
(DMCs). The DMCs sell mainframe computer processing service to functional
users. The fUnctiona user’s mainframe computer processing service is contained
in a logical partition called a “domain.” The DMCs are responsible for the Y2K
compliance of the computer hardware and the executive software. Concurrently
with the Y2K conversion, the DMCs are to be consolidated into six locations
under a restructuring to take place during a 14-month period beginning in April
 1998. The restructuring will further strain the DMC programming resources.

The DISA WESTHEM responsibility for executive software is exercised through
several field commands as well as DMCs. The DISA Support Activity Denver
(DSA-D) is responsible for reporting the status of Y2K compliance of the
executive software to DISA WESTHEM. The System Support Office (SSO) has
offices in Mechanicsburg, Pennsylvania; Montgomery, Alabama; and Dayton,
Ohio. The SSO develops and supports the Standard Operating Environment
(SOE) and distributes it to the DMCs.

Central Design Activities. Central Design Activities (CDAs) develop and
maintain application software. The CDAs are organizationally part of Military
Departments and Defense agencies, not DISA WESTHEM. The CDAs are
responsible for making the application software work within a domain running at
DMCs. When CDAs require additional software utilities for use with application
software, the DMCs do the installation. CDAs can require that the DMCs
maintain “downlevel” versions of certain executive software utilities. These
utilities may not be Y2K compliant but are needed to support the CDA
applications. However, these requirements add to the complexity of the DMCs
management responsibilities, since the Centers must coordinate changes to
executive software with all of the respective CDAs.
Evaluation Objectives
    The objective of the evaluation was to determine the adequacy of the
    Defense Information Systems Agency Year 2000 program with emphasis on the
    executive software. We evaluated whether the Defense Information
    Systems Agency’s Megacenters have completed adequate planning in accordance
    with DOD Year 2000 Management Plan guidance. Another objective was to
    determine whether the progress in making the conversion will meet DOD goals.
    See Appendix A for a discussion of the evaluation scope and methodology.




                                       4
            Finding A. Reporting Year 2000 Status
            The Defense Information Systems Agency Western Hemisphere status
            reports on the Year 2000 conversion of the executive software needed to
            process mission critical applications are incomplete and could be
            misinterpreted.  A complete and accurate status reporting is lacking
            because of the reporting metrics used. The reports did identity that the
            executive software by product inventory was 60 percent compliant.
            However, the reports did not reveal that the domain compliance is zero
            percent. As a result, DOD is at risk of classifying mission critical systems
            on mainframe computers as being Year 2000 compliant when in fact they
            are not.



DOD Mission Critical Systems
    The DOD Year 2000 Management Plan states that a system is mission critical if the
    using organization realizes a loss of core capability when the system’s capabilities
    are degraded.

    DOD Year 2000 Management Plan Requirements. The Department of Defense
    Year 2000 Management Plan defines its scope as applying to all organizations in
    DOD including Defense agencies such as DISA and:

                  . . all systems supported by information technology, including their
                technical environment, and supporting communication devices,
                including but not limited to automated business information systems,
                automated command and control systems, and weapon systems.
                Information technology support includes hardware, firmware,
                commercial off the shelf (COTS), Government off the shelf (GOTS)
                developed software, and data.        Software includes COTS/GOTS
                packages, operating systems, third and forth generation language
                compilers and interpreters, functional applications, system utilities,
                translators, and database management systems.

     The DOD Year 2000 Management Plan requires the reporting of all systems, which
     meet or exceed the following criteria:

                .   a mission critical system;

                .   a migration system;

                .   a legacy system;

                .   a system with a %2Mtotal cost per year   . . ; or

                .   a system that interfaces with a system that meets any of the above
                    criteria.

     Software. The systems that run on a mainframe computer operate in a logical
     partition called a “domain.” The domain includes the application, its data, and the

                                                 5
Finding A. Reporting Year 2000 Status


      executive software. The executive software includes the operating system, all of
      the standard system products, and any other non-standard system products needed
      by the application. The operating system and a suite of standard system products
      are called the Standard Operating Environment (SOE). The SOE is fUrnished by
      the DISA SSO for use in supporting application production and test domains. The
      operating system controls the execution of software in the domain and provides
      services such as resource allocation, scheduling, in-put/out-put control, and data
      management. The system products provide additional system services, such as
      data base management. The following figure shows the software elements making
      up a domain.

                                      The elements of a domain




                           CDA
                         sponsibility




                 :;:j::::j::DISA
                .,>:f.:.:.:.:
                :.:.:.:.:.‘Responsi    bi*ity




Reporting Year 2000 Status
      Reporting to the Office of Management and Budget. The Office of the
      Secretary of Defense (OSD) provides quarterly reports on Y2K compliance to the
      Office of Management and Budget. The reports include a line for DISA Y2K
      compliance status. For May 1998, the report showed that DISA had 60 mission
      critical systems, 7 of which were reported Year 2000 compliant The DMCs were
      simply one of the 60 systems.

      Internal Reporting by DISA. The DISA WESTHEM has been reporting its
      Y2K status to DISA Headquarters by the number of unique products and the
                                              Finding A. Reporting Year 2000 Status


    percentage of these products that are YZK ready. The DMCs have completed
    inventorying executive software products. The table provides an extract of
    mainframe conversion status from a current report to DISA.

                        DISA WESTHEM      Reported Status for April 1998

                                               Number        Percent     TarPet
                                                  of          Y2K      Comnletion
              Mission Critical Item             Items         Readv       Date
              Mainframe IBM’                      45            98       Sep 98
              Mainframe Unisys                    80           90        Sep 98
              Executive Software                2000            60       Sep 98
              Mission Suooort Item
              Facilities Equipment              1499           51          Dee 98


    The DMCs provide spreadsheets to DISA WESTHEM containing data on the
    Y2K compliance of products running within their domains. For those products
    which are non-Y2K compliant, the DMCs attempt to determine whether a
    compliant version of the product exists. The compliant product version number is
    contained in the non-compliant product spreadsheet record.



Adequacy of Year 2000 Status Reporting
    OSD Reporting. OSD reports to the Office of Management and Budget do not
    reflect the status of DMC domains. DMC domain status is fundamental to most
    DOD mainframe system compliance.

    Internal DISA reports. Our analysis of the detailed Y2K status from DISA
    WESTHEM sites visited showed that none of their domains had completed
    renovation because all had some executive software Y2K changes to be made. In
    all IBM domains, the executive software was still in the assessment phase. Each
    domain had some executive software system products of unknown Y2K status.
    On the Unisys side, each Air Force domain needed the same small number of
    known executive software product changes. Each Army and Navy Unisys domain
    needed CDA action before non-Y2K ready executive software products can be
    removed.

    The variety of executive software conditions included:

              l    non-Y2K ready operating systems;

              l    Y2K ready operating systems with system products of unknown vendor
                   or unknown Y2K status;

              l    Y2K ready operating systems with some Y2K ready system products
                   and others scheduled to be upgraded to Y2K ready versions; and


     ’ International Business Machines.
Finding A. Reporting Year 2000 Status


             l   Y2K ready operating systems with Y2K ready system products but
                 with duplicate non-Y2K ready system products still in use.

      The status of actually replacing the non-compliant software is the key to
      determining Y2K status, not just the availability of replacement software, which is
      the metric currently used to report the mission critical executive software status.
      The replacement, however, must be a joint and coordinated effort by both the
      DMC and the CDA. The need for written agreements between the DMCs and the
      CDAs is similar to the need for written agreements between system data exchange
      partners.

      The status of coordination plans, schedules, and replacements of non-compliant
      Y2K executive software is not reported. Therefore, the Y2K reports are
      incomplete and misleading. Based on our analysis, no mission critical DMC
      mainframe system is Y2K compliant because their executive software is not Y2K
      ready. Because of the significance of the DMC domains, it is very important to
      have the Secretaries of the Military Departments and Defense agencies notified of
      domains that have high risk of not becoming Y2K ready.

      Year 2000 status reporting was also the subject of Inspector General, DOD,
      Report No. 98-147, “Year 2000 Certification of Mission-Critical DOD Information
      Technology Systems,” June 5, 1998. In that report we indicated that DOD
      Components were not complying with Y2K certification criteria before reporting
      that systems are compliant. As a result, DOD reported systems as Y2K compliant
      that had not been certified or had been certified without justification.

      Inspector General, DOD, Report No. 9% 184, “Management of the Defense
      Information Systems Agency Year 2000 Program,” August 4, 1998, addressed
      other weaknesses in the DISA Y2K program.



Consequences of Inaccurate Year 2000 Status Reporting
      The information reported by DISA WESTHEM to DISA would lead to the
      assumption that the DMCs are in the renovation phase and progressing on
      schedule. However, the reports do not consider the joint work necessary for the
      domain to be renovated, tested, and implemented. Relying on such inadequate
      metrics and reports places mission critical applications at risk because a significant
      amount of conversion work, the coordinated changes between DISA WESTHEM
      and the CDAs, are not visible for management review. As a result, DOD is at risk
      of classifying mission critical systems on mainframe computers as being Year 2000
      compliant when in fact they are not. The compliance of the DMC domains is
      fundamental to the compliance of mainframe systems in the Military Departments
      and Defense agencies.

      DISA WESTHEM officials agreed with the importance of domain status to Y2K
      conversion. They are planning to start reporting actual domain executive software
      status to DISA.
                                             Finding A. Reporting Year 2000 Status


Summary
    Although DISA WESTHEM made measurable progress in pursuing
    Y2K readiness, no DMC domains were Y2K compliant because their executive
    software was not Y2K ready. DISA WESTHEM status reports were incomplete
    and overly optimistic because they concentrated on the availability of Y2K
    compliant products rather than the status of replacing the non-compliant products
    in each production domain. Although DISA WESTHEM and the CDAs have joint
    responsibility for fixing segments of the domains, they have not coordinated their
    schedules and efforts in either solving or reporting their Y2K problems. As a
    result, DISA WESTHEM reports did not reasonably state the amount of
    conversion work to be done and did not provide visibility of the issues blocking
    progress.



Recommendations, Management Comments, and Evaluation
Response
    A.l. We recommend that the Department of Defense Chief Information
    Officer, in conjunction with the Chief Information Offkers of the Military
    Departments and Defense agencies, direct the Central Design Activities to
    expedite the establishment of written agreements with the Defense
    Megacenters and Systems Support Offke for domain executive software
    Year 2000 renovation.

    ASD(C3I) Comments. The Office of the ASD(C3I) concurred and at the July 22,
     1998, Year 2000 Steering Committee meeting, the Deputy Secretary of Defense
    directed written agreements between DISA and domain users. The Oflice of the
    ASD(C31) coordinated a Secretary of Defense memorandum including a statement
    that funds are not to be obligated for any domain user that has failed to sign
    explicit test agreements with DISA by October 1, 1998. The memorandum, dated
    August 7, 1998, also states that DISA shall provide a report to the Office of the
    ASD(C31) by October 15, 1998, listing all domain users who have failed to sign
    test agreements with DISA by October 1, 1998.

    A.2. We recommend that the Director, Defense Information Systems Agency,
    direct the Defense Megacenters and Systems Support Offke to:

         a. Establish written agreements with the Central Design Activities and
    Defense Megacenters to include specific plans and agreements for domain
    executive software Year 2000 renovations.

        b. Report complete Y2K status, including the executive software
    renovations by domain, for inclusion in Defense Information Systems Agency
    Western Hemisphere reports to Defense Information Systems Agency
    Headquarters.

         c. Report the applications that are affected by domain, and the status of
    the coordinated agreements and schedules with the Central Design Activities,
    for inclusion in Defense Information Systems Agency Western Hemisphere
    reports to Defense Information Systems Agency Headquarters.

                                         9
Finding A. Reporting Year 2000 Status


      DISA Comments. DISA concurred with the recommendation.          DISA was to
      establish agreements by September 18, 1998, report Y2K status by domain by
      August 17, 1998, and report the affected applications by domain by August 17,
      1998.

      A.3. We recommend that the Director, Defense Information Systems Agency,
      report the domain Year 2000 compliance status to the Office of the Secretary
      of Defense.

      ASD(C3I) Comments. The Office of the ASD(C31) concurred and will arrange
      with DISA to obtain the information.

      DISA Comments. DISA concurred and was to report domain Year 2000
      compliance status to OSD by August 21, 1998.

      A.4. We recommend that the Department of Defense Chief Information
      Officer advise the Secretaries of the Military Departments and Defense
      agencies when Defense Megacenters identify domains that have high risk of
      not becoming Year 2000 ready.

      ASD(C3I) Comments. The Office of the ASD(C31) concurred and will request
      that the Year 2000 compliance reports from DISA include items that would
      identify domains, mission critical systems, or national security systems that have a
      high risk of not becoming Year 2000 ready.




                                           10
           Finding B. Testing Year
           2000 Compliance
           The Defense Information Systems Agency Western Hemisphere planned to
           comprehensively test the Standard Operating Environment for Year 2000
           compliance, but not the non-Standard Operating Environment software,
           computer hardware, and facility equipment. System programmers and
           hardware personnel had not been assigned testing responsibilities. The
           Defense Information Systems Agency Western Hemisphere had not
           planned testing because of reliance on vendor designation of Y2K readiness
           and Central Design Activitv annlication testing to test executive software.
           As a result, miss&n criticaiprb’cessing may b<at risk of date related
           failures.



Year 2000 Testing Guidance
    DOD Year 2000 Management          Plan. The DOD Year 2000 Management                Plan
    specifies that:

               The DOD Components must not only test Y2K compliance of
               individual applications, but also the complex interactions between
               scores of converted or replaced computer platforms, operating systems,
               utilities, applications, databases, and interfaces.

               All converted or replaced system components must be thoroughly
               validated and tested to (1) uncover errors introduced during the
               Renovation Phase, (2) validate Y2K compliance, and (3) verify
               operational readiness.

    DISA Requirement. In the Annex to the DOD Year 2000 Management Plan,
    DISA requires the validation of all hardware and software before CDA testing.
    Also, the draft Hardware and Executive Software Test Planning and Validation
    Development Guide (the Guide) provides a test planning process, basic
    requirements, criteria, compliance considerations, and an evaluation checklist.
    Neither the Annex nor the Guide address the testing of facility equipment to ensure
    Y2K readiness. DISA WESTHEM has not directed the DMCs to implement a
    software or hardware testing methodology at the time of the evaluation.



Planned Year 2000 Testing
    The DISA SSO plans to test the Unisys SOE and the International Business
    Machines (IBM) SOE. The SSO has contracted with the Defense Continuity of
    Operations Test Facility, Slidell, Louisiana, to independently test the OS/390 SOE
    for Y2K compliance. The OS/390 SOE Release 2 or higher is required for the
    domain to be Y2K compliant. The SSO has scheduled the OS/390 SOE to
    complete testing by August 21, 1998.


                                            11
Finding B. Testing Year 2000 Compliance


      The Montgomery, Alabama, SSO plans to test the Unisys SOE and certify the
      individual product groups of the Unisys SOE including the operating system,
      SB5R4. All but 2 platforms managed by the SSO have the SOE installed. The
      two platforms host Army systems. One of the systems has been “patched” for
      Y2K compliance as designated by the vendor.



Non-Standard Executive Software, Computer Hardware, and
Facility Equipment Testing
      Non-standard executive software consists of utilities placed in the domains by the
      DMCs on behalf of the CDAs.

      Neither DISA WESTHEM nor the DMCs have implemented the draft
      development guide for testing the computer hardware and non-standard executive
      software at the time of our evaluation. DISA did not provide guidance on testing
      the facility equipment for Y2K readiness. None of the DMCs had assigned system
      programmers to testing non-standard executive software, nor had the DMCs
      allocated personnel for hardware Y2K testing.

      Non-Standard Executive Software. The DMCs are responsible for the Y2K
      compliance of domain specific non-standard software that is not part of the SOE.
      Although the software product may be used by more than one DMC, no plan
      currently exists for DISA WESTHEM to manage and report the testing. At the
      time of our evaluation, the DMCs were depending on vendor designation of Y2K
      compliance instead of testing the executive software products. The DMCs were
      also relying on the CDA testing to exercise the executive software in the domain.

      Computer Hardware. DSA-D and the SSO Montgomery reported the-computer
      hardware status with respect to vendor designation. Renovation of non-ready
      computer equipment had been established, but no testing had been planned to
      validate the vendor’s renovation effort.

      Facility Equipment. At the time of our evaluation, none of the DMCs visited had
      plans for testing the facility equipment. The DMCs were responding to taskings
      from DSA-D to identity all facility equipment and update the Aperture Database.
      The DMCs did not know whether equipment validation would be handled centrally
      by DSA-D or whether each DMC would validate their equipment, even for
      common facility equipment at more than one DMC. Some of the DMCs visited
      had already initiated Y2K assessment status and were depending on vendor
      designation of Y2K readiness on their equipment.



Analysis of the Defense Megacenters Testing
      DISA has made progress in testing important segments of software for which it is
      responsible. The DISA SSO plans to test the Unisys SOE and have contracted
      with the DISA Continuity of Operations Test Facility in Slidell, Louisiana, to test
      the IBM SOE.



                                           12
                                          Finding B. Testing Year 2000 Compliance


    As a result of inadequate and delayed guidance, the DMCs have not implemented
    testing plans. At the time of our evaluation, none of the DMCs we visited had
    plans for testing non-standard executive software beyond the finctional testing to
    be conducted by the CDAs. As a result, DISA was relying on vendor designation
    of Y2K compliance as the only means of quality assurance for a significant portion
    of the software it manages.

    DISA is developing a risk mitigation test strategy based on judgmental sampling.
    Under the DISA strategy, the DMCs and CDAs would be directed to identify and
    test products determined to be at risk. DISA is planning to conduct site audits of
    10 percent of the site inventory. The planned test strategy also provides for testing
    of high risk computer hardware. DISA is also working on plans to test facility
    equipment.



Summary
    DISA was not in compliance with the DOD Year 2000 Management Plan
    requirement for testing. Although the draft Hardware and Executive Software
    Test Planning and Validation Development Guide had been issued, it had not been
    implemented throughout the organization. The Guide also did not identify facility
    equipment testing as a requirement. Without guidance or direction (policy), the
    DMCs did not know what their test responsibility was. DISA WESTHEM did not
    direct that testing be planned until the draft plan was issued. Where practical,
    vendor designation of Y2K readiness should not be used in place of validation.



Recommendations, Management Comments, and Evaluation
Response
    B. We recommend that the Director, Defense Information Systems Agency,
    direct the Defense Megacenters and Systems Support Offke to plan, conduct,
    and provide progress reports for comprehensive Year 2000 testing of non-
    standard executive software, computer hardware, and facility equipment.

    DISA Comments. DISA concurred with comment. DISA intends to selectively
    test components of the non-standard executive software, computer hardware, and
    facility equipment for Year 2000 compliance. Due to time and resource
    constraints, DISA will not be able to test all of the executive software products in
    use. They are currently meeting with customers to jointly decide which products
    will be tested. The estimated completion date is December 3 1, 1998.




                                         13
           Finding C. Planning Year
           2000 Contingencies
           During the evaluation, the Defense Information Systems Agency decided to
           establish contingency plans and issued initial guidance. However, the
           contingency planning guidance for recovering from executive software,
           computer hardware and facilities equipment related Year 2000 failures
           needs to be expanded. Without more comprehensive planning, mission
           critical systems may not be able to continue operations if Year 2000
           failures occur.



Defense Megacenter Contingency Planning

    Contingency plans describe the steps an organization would take, including the
    activation of manual or contract processes, to ensure the continuity of its core
    business processes when a system failure occurs. Contingency plans allow
    management and operations personnel to expeditiously deal with unexpected
    losses of computer systems, infrastructure facilities, and telecommunications
    networks. They typically involve switching to a back-up processing facility or
    operating the mission in a degraded mode, using substitute information processing
    and communication technology and procedures, until the primary system can be
    restored.

    Y2K failures differ from disaster recovery because date malfunctions and
    renovated version failures may not be correctable by reverting to old versions of
    the software. With the Y2K problem, there is no working prior system to transfer
    back to, since all the existing software is non-compliant. Writing Y2K contingency
    plans is difficult because executive software, computer hardware, and facilities
    equipment have unique failure characteristics.

    Executive Software, Computer Hardware, and Facilities Equipment. For
    executive software Y2K failures, problems could be complicated by the need to
    move the executive software and its operating environment to an alternative
    location. For example, the executive software may not be licensed to operate at
    the alternative site, or Y2K failures of the executive software may not be covered
    by software support agreements.

    Hardware Y2K failures are complicated by the commonality of hardware
    configurations within the DMCs. The typical disaster-recovery approach of
    moving the affected system to another location fails if the other site has the same
    hardware configuration. If the hardware is the same, a Y2K failure will affect the
    moved system at other locations as well. Typically, Y2K contingency plans
    correct the problem where the failure occurred.

    Identification of Y2K problems in facilities is more difficult because of the
    proliferation of date-sensitive microchips in equipment that previously had




                                          14
                                      Finding C. Planning Year 2000 Contingencies




    been purely mechanical. Aside from obvious facility elements; such as fire control
    systems and security systems, less visible elements include interfaces with the
    outside world such as electrical power, water, and sewage systems. Many
    activities have only begun assessing the impact of Y2K-induced interruptions of
    basic services.

    Importance of Contingency Plans Based on Risk Assessment. It is good
    practice in software engineering to base contingency planning on risk assessments.
    Risk assessments are performed to identify risks and estimate their probability and
    the impact of their occurrence. Risk assessments provide an estimate of damage,
    loss, or harm that could result from a failure of individual system components.
    Risk assessments contribute to contingency planning by focusing on potential
    disruptions to normal processing.



Contingency Planning Requirements

    The DOD Year 2000 Management Plan (the Plan) makes contingency planning part
    of the Y2K conversion process. DOD requires the development of contingency
    plans in the Assessment Phase of the Y2K conversion process. The Plan directs
    components to develop realistic contingency plans, including the development of
    manual or contract procedures, to ensure continuity of their core processes. The
    Plan also requires the contingency plans to be updated as Y2K conversion
    progresses.

    Risk Assessment Requirements. The approved version of the DOD Year 2000
    Management Plan does not mention the need for risk assessments as a precursor to
    the writing of contingency plans, However, other recognized guidance on Y2K
    “best practices” stresses the criticality of performing risk assessments as a crucial
    component of contingency planning. For example, the GAO Exposure Draft on
    the “Year 2000 Computing Crises: Business Continuity and Contingency
    Planning” cites risk and impact analysis as being essential in determining the effect
    of mission-critical information system failures on the viability and operations of
    agency core business processes.

    Validating Contingency Plans. Another key element of “best practices” is the
    need to validate contingency plans. The GAO Exposure Draft says that the
    objective of validation is to evaluate whether individual contingency plans are
    capable of providing the desired level of support to the agency’s core business
    processes and whether the plans can be implemented within a specified period of
    time.

Defense Information Systems Agency Contingency Planning
    Initially DISA did not plan to write contingency plans for its own use, preferring to
    rely on the CDAs planning. The first DISA Management Plan, written in August
    1997, does not mention contingency planning as part of any of the five conversion
    phases, although the DOD Year 2000 Management Plan advises first writing plans
    during the Assessment Phase.



                                          15
Finding C. Planning Year 2000 Contingencies




      However, DISA has recently recognized the need for contingency plans, and in
      May 1998, issued guidance directing the DMCs to write specific Y2K contingency
      plans. But the guidance does not impose milestones for when the individual
      DMCs should have the action plans written.

      Analysis of the DISA Approach. The DISA guidance is comprehensive,
      covering many important considerations in writing plans. The guidance discusses
      areas such as: operating system software; hardware; facilities; the Y2K help desk;
      personnel; communications; supplies; reports; applications; and contracts.
      However, the guidance does not tie the writing of the plans to the necessary risk
      assessment. Nor does the guidance emphasize the need to validate the plans.

      At the time of our evaluation, the DMCs were waiting for DISA to issue its
      guidance before writing contingency plans. Although the exact timing for writing
      plans is not definite, the DOD Year 2000 Management Plan states that the first
      draft contingency plans should be written during the Assessment Phase of Y2K
      conversion.

      Effects on Executive Software, Computer Hardware, and Facilities
      Equipment. Issuing facilities equipment Y2K contingency plans depended on
      completion of two milestones: the publication of final guidance from DISA and a
      completion of a risk assessment. Facilities equipment contingency planning also
      awaits completion of the equipment inventory.

      Hardware and software contingency plans awaited the completion of guidance and
      a risk assessment But hardware and software plans face a more complex
      implementation than facilities equipment, since hardware and software may have to
      be rehosted at another location. Hardware and software inventory is still not
      complete and resources to support the contingency plans must be identified before
      they can be obtained. Hardware plans are also complicated by the presence of
      common configurations within the DMCs.

      Also, since risk assessment and plan validation are part of other best practices, they
      ought to be part of the DISA guidance.

      Potential Problem Areas. Because of the complexity and uniqueness of the Y2K
      problem, identifying all the potential problems may be difficult. For example, visits
      to several Megacenters showed that building access to the mainframe computer by
      the system programmers is not being provided. Instead, Megacenter system
      programmers are located in a separate building from where the mainframe
      computer operates. If an environmental-related   Y2K failure occurs, such as a loss
      of power, the system programmers could not access the mainframe computer.
      Contingency planning would account for the programmer’s need for workspace
      within the building containing the mainfkame computer. Detailed analysis of the
      computer hardware, facilities equipment, and executive software may show
      additional problems similar to these.

      Other Considerations.      A final element in contingency planning is the need to set
      trigger mechanisms to ensure that the plans will be executed when required. Best
      practices dictate that the contingency plans be validated to ensure that they work,
      and that the plans be updated based on the results of the live validations.



                                            16
                                      Finding C. Planning Year 2000 Contingencies




    Resources Needed to Support Contingency Plans. The time lag needed to
    obtain resources was one of the factors that influenced the authors of the
    DOD Year 2000 Management Plan to advocate the writing of the contingency
    plans early in the conversion process, during the Assessment Phase. The DMCs
    need time to obtain supporting resources for execution of the plans. For example,
    contractors could be placed on retainers in order to fix problems, or plans could be
    made for rehosting the software at an alternative site. Regardless of the
    alternatives proposed, the DMCs must ensure that the resources will be available
    when they are needed.



Summary
    Writing Y2K contingency plans at the DMCs for executive software, computer
    hardware, and facilities equipment will require a major effort in order to ensure
    continuity of operations of mission critical systems. DISA has recently recognized
    the need for contingency planning as part of a sound Y2K conversion management
    program. However, the guidance needs to be revised to require the performance
    of risk assessments. To ensure completion, DISA needs to provide specific
    milestone dates to the DMCs for having the plans written.



Recommendations, Management Comments, and Evaluation
Response
    C. We recommend that Director, Defense Information Systems Agency,
    direct the Defense Megacenters to conduct contingency planning and that the
    requirements be issued to the Defense Megacenters. The direction should
    include:

         1. Writing requirements    to complete risk assessments.

         2. Writing requirements to plan for contingency coverage of executive
    software, computer hardware, and facilities equipment.

        3. Writing requirements     to establish contingency   planning milestones.

        4. Writing requirements to report the status of contingency        planning
           development, and contingency plan validation.

    DISA Comments. DISA concurred and will instruct the DMCs to conduct
    contingency planning. DISA will issue requirements that include those in the
    recommendation.    The estimated completion date is November 2, 1998.




                                         17
Part II - Additional Information
Appendix A. Evaluation Process


Scope and Methodology
    This is one of a series of reports being issued by the Inspector General, DOD, in
    accordance with an informal partnership with the Chief Information Officer, DOD,
    to monitor DOD efforts to address the Y2K computing challenge. For a listing of       .
    audit projects addressing this issue, see the Y2K webpage on IGNET at
    http://www.ignet.gov/.

    We evaluated executive software running on mainframe computers at
    DISA Megacenters, including the Y2K readiness of the hardware, peripherals, and
    facilities used to support the executive software. We visited the three SSO offices
    in Mechanicsburg, Pennsylvania; Montgomery, Alabama; and Dayton, Ohio. We
    also visited Megacenters in Mechanicsburg, Pennsylvania; Columbus, Ohio;
    St. Louis, Missouri; Oklahoma City, Oklahoma; San Antonio, Texas; and Ogden,
    Utah. These 6 Centers are the ones the other 10 are being consolidated into. We
    visited three of the “losing” Megacenters at Chambersburg, Pennsylvania;
    Montgomery, Alabama; and Dayton, Ohio. We also visited the Denver Support
    Office in Denver, Colorado, and we attended the quarterly CDA Conference in
    Jacksonville, Florida, in February 1998. Our conclusions reflect the status of
    DISA conversion plans as of May 4, 1998.

    DOD-wide      Corporate Level Government Performance and Results Act Goals.
    In response    to the Government Performance and Results Act, the DOD has
    established   6 corporate-level performance objectives and 14 goals for meeting the
    objectives.   This report pertains to achievement of the following objective and
    goal:

            l     Objective: Prepare now for an uncertain future.
            l     Goal: Pursue a focused modernization effort that maintains U.S.
                  qualitative superiority in key war fighting capabilities.
    DOD Functional Area Reform Goals. Most major DOD functional areas have
    also established performance improvement reform objectives and goals. This
    report pertains to achievement of the following functional area objectives and
    goals.

            l     Information Technology Management Functional Area.
                  Objective: Become a mission partner. Goal: Serve mission
                  information users as customers.
            l     Information Technology Management Functional Area.
                  Objective: Provide services that satisfy customer information needs.
                  Goal: Modernize and integrate DOD information infrastructure.
            l     Information Technology Management Functional Area.
                  Objective: Provide services that satisfy customer information needs.
                  Goal: Upgrade technology base.



                                           20
                                                     Appendix A. Evaluation Process


    General Accounting OffIce High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DOD. This report provides coverage of the
    Information Management and Technology high-risk area.

    Use of Computer Processed Data. We examined computer records from the
    DISA Aperture Data Base. Nothing came to our attention as the result of our
    evaluation that caused us to doubt the reliability of the computer processed data.

    Contacts During the Evaluation. We visited or contacted individuals and
    organizations within DOD. Further details are available on request.

    Management Control Program. We did not review the management control
    program related to the overall evaluation objectives because DOD recognizes the
    Year 2000 issue as a material management control weakness area in their annual
    statements of assurance for FYs 1996 and 1997.



Summary of Prior Coverage
    The General Accounting Office and the Inspector General, DOD, have conducted
    multiple reviews related to Y2K issues. General Accounting Of&e reports can be
    accessed over the Internet at http://www/gao.gov.     Inspector General, DOD,
    reports can be accessed over the Internet at http://www.dodig.osd.mil.




                                         21
Appendix B. Glossary
   Aperture. DISA name for a configuration       management   data base used to track
   Y2K inventory and status.

   Application program. A computer program designed to help people perform a
   certain type of work. Depending on the work for which it was designed, an
   application can manipulate text, numbers, graphics, or a combination of these
   elements.

   Computer hardware. The physical components of a computer system, including
   the mainframe processor, and peripherals such as printers, tape silos, and direct
   access storage devices.

   Domain.’    A logical part of a mainframe computer where software is designed to
   work.

   Downlevel versions of software. Earlier versions or releases of software which
   may be running in the same executive software domain as later versions.

   Executive software. The collective name for all the system software products,
   including the operating system, that support the application program.

   Facilities equipment. Any devices used in the physical plant of a computer
   installation whose purpose is the maintenance of the operating environment, such
   as cooling machinery, security monitors, or lighting.

   Mainframe computer. Generic term for large computers which characteristically
   process and store massive volumes of data.

   Mission critical system. A system that when its capabilities are degraded, the
   organization realizes a resulting loss of core capability.

   Platform.   A domain in Unisys terminology.

   OS/390. A standard IBM operating system which is Year 2000 compliant in
   versions 2.0 or higher.

   SBSR4. SB5 is the current Unisys mainframe computer operating system
   Release 4 or higher is known to be Y2K compliant.

   Standard Operating Environment. A standard suite of system software that is
   furnished by the Defense Information Systems Agency SSO for use in supporting
   application production and test domains.


   ’ In Unisys terminology, domains are called platforms, but we have used the term
     “domain” throughout for consistency.




                                       22
                                                           Appendix B. Glossary


Risk assessments. A continuous process performed during all phases of system
development to provide an estimate of the damage, loss, or harm that could result
from a failure to successfully develop individual system components.

Testing. Actions to determine that the results generated by the information
systems and their components are accurate and the systems perform to
specifications.

Utilities. Programs designed to perform maintenance work on a system or on
system components - for example, a storage backup program, a disk or file
recovery program, or a resource editor




                                    23
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition and Technology
   Director, Defense Logistics Studies Information Exchange
Under Secretary of Defense (Comptroller)
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
Assistant Secretary of Defense (Command, Control, Communications,      and Intelligence)/
   Chief Information Officer, Department of Defense
  DOD Year 2000 Project Officer
Assistant Secretary of Defense (Public AfXairs)

Joint Staff
Director, Joint Staff

Department of the Army
Auditor General, Department of the Army
Chief Information Officer, Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management   and Comptroller)
Auditor General, Department of the Navy
Chief Information Officer, Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management   and Comptroller)
Auditor General, Department of the Air Force
Chief Information Officer, Air Force

Other Defense Organizations
Director,    Ballistic Missile Defense Organization
   Chief    Information Officer, Ballistic Missile Defense Organization
Director,    Defense Advanced Research Projects Agency
   Chief    Information Officer, Defense Advanced Research Projects Agency
Director,    Defense Commissary Agency
   Chief    Information Officer, Defense Commissary Agency
Director,    Defense Contract Audit Agency
   Chief    Information Officer, Defense Contract Audit Agency




                                             24
                                                       Appendix C. Report Distribution


Other Defense Organizations (cont’d)
Director, Defense Finance and Accounting Service
   Chief Information Oficer, Defense Finance and Accounting Service
Director, Defense Information Systems Agency
   Inspector General, Defense Information Systems Agency
   Chief Information Officer, Defense Information Systems Agency
Director, Defense Legal Services Agency
   Chief Information Officer, Defense Legal Services Agency
Director, Defense Logistics Agency
   Chief Information Oficer, Defense Logistics Agency
Director, Defense Security Assistance Agency
   Chief Information Oficer, Defense Security Assistance Agency
Director, Defense Security Service
   Chief Information Oficer, Defense Security Service
Director, Defense Special Weapons Agency
   Chief Information Oficer, Defense Special Weapons Agency
Director, National Security Agency
   Inspector General, National Security Agency
Director, On Site Inspection Agency
   Chief Information Officer, On Site Inspection Agency
Director, Washington Headquarters Services
Inspector General, Defense Intelligence Agency
Inspector General, National Imagery and Mapping Agency

Non-Defense Federal Organizations and Individuals
Chief Information Officer, General Services Administration
Office of Management and Budget
   Office of Information and Regulatory Affairs
Technical Information Center, National Security and International   Af?airs Division,
   General Accounting Office

Chairman and ranking minority member of each of the following congressional      committees
  and subcommittees:

  Senate Committee on Appropriations
  Senate Subcommittee on Defense, Committee on Appropriations
  Senate Committee on Armed Services
  Senate Committee on Governmental Affairs
  Senate Special Committee on the Year 2000 Technology Problem
  House Committee on Appropriations
  House Subcommittee on National Security, Committee on Appropriations
  House Committee on Governmental Reform and Oversight
  House Subcommittee on Government Management, Information, and Technology,
     Committee on Government Reform and Oversight
  House Subcommittee on National Security, International Affairs, and Criminal Justice,
     Committee on Government Reform and Oversight
  House Committee on National Security




                                            25
Part III - Management   Comments
Office of the Assistant Secretary of Defense
(Command, Control, Communications, and
Intelligence)/ Department of Defense Chief
Information Officer Comments

            OFFICE     OF THE ASSISTANT           SECRETARY         OF DEFENSE
                              m   DEFENSE             PENTAGON
                                WASHINGTON.      DC     2G3016ooo

                                        August    lb.    1998




     MEMORANDUM     FOR DIRECTOR,    ANALYSIS, PLNNNG, AND TECHNICAL
                          SUPPORT    DIRECTORATE, INSPECTOR GENERAL,             DOD

     SUBJECT:      Evaluation of the Defense Megacentess Year 2GOO
                   Program (Project No. 8PT-30051


          Thank you for providing the outstanding draft report for
     comment. This report provides unprecedented insight into the
     interagency relationships involved in the Defense Megacenters
     Year 2000 (Y2K) Program and their users. The techniques
     developed by your staff and advocated in the report form a
     template for solving the problems that have resulted from the
     lack of interagency agreements for each meqacenter domain.   'vie
     also appreciate the briefing on the report provided by Mr. Ken
     Stavenjord of your staff to the Y2K Steering Committee on
     July 22, 1998. This briefing, and the subsequent one by the
     Director of the Defense Information  Systems Agency !DISA), have
     led to decisions by the Deputy Secretary of Defense at the Y2K
     Steering Committee meeting to ensure YZK compliance for all
     domains.    The DOD Chief Information Officer (CIO) staff
     coordinated   a Secretary of Defense memorandum (Attachment 1) to
     formalize these decisions.

          We concur with all the recommendations found in the report.
     Our comments on the three recommendations that pertain to the
     DOD CIO at attachment 2.

           Should you have any questions, my point of contact                for this
     action is Ms. Sally Brown, 703-602-0967, email:
     sally.browV?osd.pentagon.mil.



                              - ,-,I\_< j,, 7 ( 1 I -I .
                                                         ,-- /
                             i- Marvin J. Langston
                       Deputy Assistant Secretary of Defense
                          (CIO Policy and Implementation)

     Attachments




                                          28
Offke of the Assistant Secretary of Defense (Command, Control, Communications,
    and IntelbenceV DeDartment of Defense Chief Information Offker Comments



                                       THE SECRETARY    OF DEFENSE
                                          1Ooo DEFENSE PENTAGON
                                        WASHINGTON. DC 20301.IO00




           MEMORANDUM FOR SECRETARIES OF THE MILITARY DEPARTMENTS
                          CHAIRMAN OF THE JOINT CHIEFS OF STAFF
                          UNDER SECRETARIES OF DEFENSE
                          DIRECTOR, DEFENSE RESEARCH AND ENGINEERING
                          ASSISTANT SECRETARIES OF DEFENSE
                          GENERAL COUNSEL OF THE DEPARmT       OF DEFENSE
                          INSPECTOR GENERAL OF THE DEPARTMENT OF DEFENSE
                          DIRECTOR, OPERAllONAL TEST AND EVALUATlON
                           COMMANDERS OF THE COMBATANT COMMANDS
                          ASSISTANTS TO THE SECRETARY OF DEFENSE
                          DIRECTOR. ADMINISTRATION AND MANAGEMENT
                          DIRECTORS OF THE DEFENSE AGENCIES


           SUBJECT: Year ZOO0Compliance


                   The Deparunent of Defense (DOD) is making insufficient progress in its efforts to
           solve its Y2K computer problem. To improve the accountability for corrective actions, I am
           directing the following activities in addition to those already underway in this area.

                   I have asked the Chairman of the Joint Chiefs of Staff to develop a Joint Y2K
           operational evaluation program and he will give me his plans by October 1. 1998. Startmg
           nith their next quanerly reports to me. each of the Unified Commanders-in-Chief will review
           the Smtus of Y2K implementation within his command and the command of subordinare
           components. Additionally. staning with the September 1998 Senior Readiness Oversight
           Council (SROC). the SROC will report on the readiness implications of Y2K.

                  By September 15.1998. the Commander-in-Chief of the U.S. Strategic Command,
           the Senior Civilian Official (SCO) of the Of&e of the Assistant Secretary of Defense
           (Command, Control, Communications and Intelligence) (OASD(C31)). and the Joint Staff
           Director of Operations (J-3) will provide to me a detailed repot? on the Y2K compliance of
           the nuclear command and control system. This report will be briefed to the DOD Y2K
           Steering Committee in September.

                  By October 1. 1998. the Services and Defense Agencies will each report to me on
           evm Acquisition Category (ACAT) 1, ACAT lA attd ACAT I1 system within their purview.
           Each report will address Y2K comphncc or areas of nonoompliance of each respective
           system. to include all related logistics and suppon systems. Each report will be co-signed by
           each respective program mana8cr and Progmm Exautive Officer or system wmmand



                                                                                  U.133 19. 198




                                                         29
Offke of the Assistant Secretary of Defense (Command, Control, Communications,
and IntellieenceY Denartment of Defense Chief Information Officer Comments




         commander. This includes the Reserve and National Guard components. Reports wtll
         mcludc corrective actton plans for Y2K compliance.

               The Militay Departments. CMCs. and Defcnsc Agencies will bc responsible for
         ensurmg that effecttvc October 1. 1998:

                (I) Thelist of mission-critical systems under his or her respective purview is
         accurately repotted m the DoD Y2K database, ulth each change in mission-critical
         designation rcportcd and explained within one month of the change to the OASD(C3l).

                (2) Funds arc not obligntcd for any mtssion-critical system that is listed in the Y2K
         database that lacks a complete set of formal interface agreements for Y2K compliance.

                (3) Funds are not obligated for any contract thawis for information technology (TT) or
         nattonal security system WSS) that processssdate-related informatton and that does not
         contain YIK requirements spccitied in Sectton 39.106 of the Federal Acqutsition Regulation,

               (4) Funds arc not obligated for anv domain user in a Defense Information Systems
         ~gencv t DISA) megacentcr if that domain user has failed to sign all assoctatcd explicit test
         agreements \\lth DlSA.

                 DISA will provide a report to the OASD(C31) by October IS. 1998. listing all
         megacenrer domain users who have failed to sign explicit test agreements with DlSA by
         October I _1998. Based on OASD(C31) recommendations. OUSD(Comptroller) (OUSD(C))
         uill place domain user timds on withhold.

                 The OUSD(C) will issue guidance to the Military Dcpartmcnu and Defense Agencies
         on fhc funding prohibitions described above before October I, 1998. Program managers for
         IT or NSS vbith critical funding needs may reek a waiver from these funding prohibitions.
         The SC0 of the OASD(C31) may grant waivers to allow funding on a case-by-case basis.

                We wtll take a hard look at progress in November and December. If we are still
         lagginp behind, all hvthcr modification to software. except those needed for Y2K
         nmediation. will be prohibttctl after January I. 1999.

               I ask for your personal. priority involvement as we address &is critical national
         defcnw issue.




                                                                  30
Offke of the Assistant Secretary of Defense (Command, Control, Communications,
    and Intelligence)/ Deeartment of Defense Chief Information Offker Comments




                     OASD(C31) Caaun ts on Recapun d&ion8
             Pertaining  to the Office of the Secretary of Defense
            Draft Ev&luetion Report, Project No. SPT-3005, June 29,
                                      1990
            Evrlurtion of thr Dofenme Mmgrorntem   Year 2000 Program

         A.l. We recommend that the Department of Defense Chief
         Information Officer, in conjunction with the Chief
         Information Officers of the Military Services and Defense
         agencies, direct the Central Design Activities to expedite
         the establishment of written agreements with the Defense
         Megacenters and Systems Support Offices for domain
         executive software Year 2000 renovation:

         OASD(C31) Response:  Concur. At the July 22, 1998, Year
         2000 Steering Committee meeting, the Deputy Secretary of
         Defense directed written agreements between the Defense
         Information Systems Agency and the users of each domain.
         The staff of the OASD(C31) 1s coordinating a policy
         memorandum at the request of the Deputy Secretary of
         Defense to formalize the requirements for these agreements.

         A.3. We recommend that the Director, Defense Information
         systems Agency report the domain Year 2000 compliance
         status to the Office of the Secretary of Defense.

         OASD(C31) Response:  Concur.   We will arrange with DISA for
         obtaining this information.

         A.4. We recommend that the Department of Defense Chief
         Information Officer advise the Secretaries of the Military
         Services and Defense agencies when Defense Megacenters
         identify domains that have high risk of not becoming Year
         2000 ready.

         OASD(C31) Response:   Concur. We will request that the Year
         2000 compliance status reports be submitted to the
         OASD(C31) include items reported to DISA that would
              - Identify any mission critical information technology
         or national security systems as being at high risk of not
         becoming Year 2000 ready, or
              - Identify any domains that have highrisk of not
         becoming Year 2000 ready.




                                        31
Defense Information Systems Agency Comments


                         DEFENSE     INFORMATION SYSTEMS AGENCY
                                          7015.CouRMMlsE
                                                       mm0
                                       *fxwxON. YlRGlNU
                                                      zz?w*1po




     inspector
            General                                           4 August 1998


     MEMORANDUM         FOR 1NSPECTOR GENERAL, DEPARTMENT                 OF DEFENSE
                          ATTN: Director. APTS Directorate

     SUBJECT:             Comments to DODIG Draft Audit Report on
                          the Defense Megacenters Year 2000 Program

     Reference:           DODIG Draft of a Proposed Evaluation Report,
                          Evaluation of the Defense Megaccnters Year
                          2GOO Program (Project No. SPT-3005)


     1. We have reviewed the subject draft report and concur with the Iindings and
     recommendations.    DISA has already begun incorporating the appropriate changes into the
     DMC Year 2ooO Program. The evaluation results indicate that.. “although much progress has
     been made in converting tbe Defense Megacenter Systems to Year 2000 compliance, problems
     remain in three areas: reporting, testing, and contingency planning.’ Tbe enclosure addresses
     those concerns.

     2. The Year 2UJO (YZK) prohlem continues IO be the Director’s top priority. Tbe Director
     has maintained a high focus on the Defense Megacenters, and their approach to achieving Y2K
     compliant platforms. During the weekly Y2K meetings, chaired by the Vice Director. the
     DMCs are highlighted to focus on the complexities involved in certifying all domains.

     3. The WESTHEM POC for this action is Colonel George Fiedler, USAF, Chief,
     WESTHEM Operations.       He can be contacted at (703) 681-2271 or by email at
     ftedlerg@ncr.disa.mil.  The DISA OIG contact is Ms. Sandra J. Sinkavitch. She can be
     reached on (703) 607-6316 or by email at sinkavis@ncr.disa.mil.

     FOR THE DIRECTOR:




     1 Enclosum   a/s                           RICHARD T. RACE
                                          t     Inspector General




                               Quality Information for a Strong Defense




                                                             32
                                       Defense Information          Svstems APencv Comments




     MANAGEMENT   COMMENTS TO DODIG DRAFT EVALUATION           OF THE
              DISA DEFESE MEGACENTERS        YEAR 2000 PROGRAM
                          (Project No. 8FT-3005)



Finding A - Reporting of Year 2000 Status

Recommendation A.2 - Recommend the Director, Defense Information Systems Agency
(DISA), direct the Defense Megacenters (DMC) and Systems Support Offices to:

       a.     Establish written agreements with the Central Design Activities (CDA) and
              DMCs to include specific plans and agreements for domain executive software
              Year 2000 renovations.

       Response:   Concur.     DISA will establish the agreements by 18 September 1998

       b.     Report complete YZK status, including the executive software renovations by
              domain, for inclusion in the DISA WESTHEM reports to DISA Headquarters.

       Response:   Concur.     DISA will report the Y2K status by 17 August 1998.

       C.     Report the applications that are affected by domain, and the staNs of the
              coordinated agreements and schedules with the CDAs, for inclusion in DISA
              WESTHEM reports to DISA Headquarters.

       Response:   Concur.     DISA will report the affected domains by 17 August 1998.

Recommendation      A.3 - Recommend that the Director, DISA. report the domain Year 2OC0
compliance   staNs to   the office of the Secretary of Defense.

Response: Concur. DISA will report the domain Year 2000 compliance status to OSD by 21
August 1998. As recommended in the evaluation report, DISA will begin to track metrics for
the number of domains that are Y2K compliant versus the number of copies of Y2K compliant
executive software. In addition DISA will also continue coordinating test schedules with the
CDAs to ensure that the Y2K compliant applications can run on certified DMC platforms.

Finding B - Testing Year 2000 Compliance

Recommendation      B - Recommend that the Director, DISA, dinct the DMCs and Systems
Support Officers to plan, conduct, and provide progress reports for comprehensive Year 2OGU
testing of non-standard executive software, computer hardware, and facility equipment.

Response: Concur with comment. DISA intends to selectively test components of the non-
standard operating environment, computer hardware, and facility equipment for Year 2000
compliance. Due to time and resource constraints, DISA will not be able to test all 3ooO




                                                 33
Defense Information        Systems Aeencv Comments




          executive software products currently in use. This agency is currently conducting meetings
          with its custorncra to discuss and identify which non-SOE producta will be tested/vaIidated
          independently. Decisions will be made jointly as to which ptuducts will be tested. All actions
          will bc formally documented for review. The estimated completion date is 31 December 1998.

          Finding C - Flanning Year 2000 Cont@enclca

          Recotnmendatbn C.1 - Recommend that the Director, DISA. directtheDMCs to conduct
          contingency planning and that the requirements be issued to the DMCs. The direction should
          include:

                 1.    Writing requirements to complete nsk aaxssments.
                 2.    Writing requirementa to plan for contingency coverage of executive software,
                       computer hardware, and facilities equlpmeot.
                 3.    Writing requirements to establish contingency planning milestones.
                 4.    Writing requirements to report the status of contingency planning development.
                       and contingency plan validation.

          Response: Concur. The Director will instruct the DMCs to conduct contingency planning and
          issue requirements to the DMCs according to the above guidance. The estimated completion
          date is 2 November 1998.




                                                          34
Evaluation Team Members


The Analysis, Planning, and Technical Support Directorate, Office of the Assistant
Inspector General for Auditing, DOD, produced this report.


   Michael G. Huston
   Kenneth H. Stavenjord
   Danny B. Convis
   Jaime A. Bobbio
   Wei K. Chang
   George B. Cherry
